Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




CMS’S RELIANCE ON CALIFORNIA’S
LICENSING SURVEYS OF NURSING
 HOMES COULD NOT ENSURE THE
 QUALITY OF CARE PROVIDED TO
   MEDICARE AND MEDICAID
        BENEFICIARIES




                       Daniel R. Levinson
                        Inspector General

                           June 2014
                         A-09-12-02037
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 CMS’s reliance on California’s licensing surveys of nursing homes could not ensure
 the quality of care provided to Medicare and Medicaid beneficiaries.

WHY WE DID THIS REVIEW

Prior Office of Inspector General (OIG) reviews identified issues related to the oversight of
quality of care in California nursing and skilled nursing facilities (nursing homes). OIG is also
performing reviews in various States to determine whether health care providers, including
nursing homes, met Federal and State requirements for employee qualifications and health
examinations. The Centers for Medicare & Medicaid Services (CMS) relies on State licensure,
including licensing surveys, as one way to ensure the quality of care provided in nursing homes.

Our objective was to determine whether CMS’s reliance on the California Department of Public
Health, Licensing and Certification Division’s (State agency) licensing surveys of nursing homes
ensured quality of care and that adequate protection was provided to Medicare and Medicaid
beneficiaries.

BACKGROUND

The Social Security Act includes requirements that are intended, in part, to ensure the quality of
care provided to Medicare and Medicaid beneficiaries in nursing homes, including that nursing
homes be licensed under applicable State law. CMS implemented the licensing requirement in
42 CFR part 483 as a condition of participation that nursing homes must meet before they
provide services to Medicare and Medicaid beneficiaries. CMS relies on the States to license
nursing homes within their jurisdictions.

In California, the State agency must perform licensing surveys of nursing homes every 2 years to
determine whether they meet the licensing requirements. If a nursing home does not meet these
requirements, the State agency can impose a fine, suspend or revoke the nursing home’s license,
or take other actions. The survey procedures include reviewing employee qualifications,
employee health examination records, and units within the nursing homes providing optional
services, such as physical therapy. We refer to these units as “optional service units.”

Nursing home employees providing professional services, such as nursing or therapy services,
are required to be licensed or certified in accordance with applicable State law. They are also
required to have initial and annual health examinations to ensure that they do not have a health
condition that would create a hazard for residents. An examination has three required
components: a physical evaluation, medical history evaluation, and tuberculosis screening.
Nursing homes must obtain State agency approval to operate optional service units that meet
State requirements for adequate policies and procedures, staff, equipment, and space.

During calendar years (CYs) 2010 and 2011, California nursing homes had about 130,000 health
care and non-health-care employees serving more than 13,200 Medicare and 61,800 Medicaid



CMS’s Reliance on California Licensing Surveys of Nursing Homes (A-09-12-02037)                      i
beneficiaries. For our review, we randomly selected 8 of 1,117 nursing homes in California and
then randomly selected 30 health care employees who worked at each of the 8 nursing homes.

WHAT WE FOUND

CMS relied on the State agency’s licensing surveys of nursing homes. However, we found that
nursing homes did not always meet certain State requirements for employee health examinations
and optional service units. The licensing surveys did not always identify these issues; therefore,
CMS’s reliance on these surveys could not ensure quality of care and that adequate protection
was provided to Medicare and Medicaid beneficiaries.

All 240 sampled employees were licensed or certified in accordance with applicable State law.
However, for 59 employees, required health examinations were not conducted, and for
73 employees, at least 1 required component of health examinations was not conducted. Using
our sample results, we estimated that during CYs 2010 and 2011, health examinations were not
conducted for 30 percent of employees statewide, and at least one required component of health
examinations was not conducted for 26 percent of employees statewide. The sampled nursing
homes did not always follow their policies and procedures for health examinations, or their
policies and procedures were inadequate. Also, the State agency did not always conduct the
required licensing surveys, and the State agency’s procedures for reviewing health examination
records did not specify all required components.

In addition, seven of the eight sampled nursing homes did not obtain State agency approval for
optional service units but provided services in those units. The nursing homes and State agency
district offices misunderstood the requirement to obtain approval for optional service units.
Also, the State agency’s licensing survey procedures for reviewing optional service units did not
require surveyors to determine whether the nursing homes had approval to operate them.

The nursing homes and the State agency could not be sure that nursing home employees were
free of any health conditions that might have created a hazard for Medicare and Medicaid
beneficiaries. Further, they could not always demonstrate that optional service units at the
nursing homes met State requirements for adequate policies and procedures, staff, equipment,
and space.

WHAT WE RECOMMEND

To ensure quality of care and the adequacy of the protection provided to Medicare and Medicaid
beneficiaries in nursing homes, we recommend that CMS work with the State agency to ensure
that:

    •   nursing homes (1) implement and follow adequate policies and procedures for employee
        health examinations and (2) request approval for optional service units,

    •   the State agency conducts all required licensing surveys and reviews employee health
        examination records during those surveys, and




CMS’s Reliance on California Licensing Surveys of Nursing Homes (A-09-12-02037)                      ii
    •   the State agency improves licensing survey procedures for (1) reviewing employee health
        examination records and the three required components and (2) determining whether
        optional service units operated by the nursing homes are approved and optional services
        are listed on the licenses.

CMS COMMENTS

In written comments on our draft report, CMS concurred with all of our recommendations and
provided information on actions that it planned to take to address our recommendations.




CMS’s Reliance on California Licensing Surveys of Nursing Homes (A-09-12-02037)               iii
                                                     TABLE OF CONTENTS


INTRODUCTION .......................................................................................................................1

           Why We Did This Review ...............................................................................................1

           Objective ..........................................................................................................................1

           Background ......................................................................................................................1
                 Federal Licensing Requirements for Nursing Homes Under Medicare
                   and Medicaid .....................................................................................................1
                 Licensing Surveys of Nursing Homes in California ............................................1
                 State Requirements for Employee Qualifications, Health
                   Examinations, and Optional Service Units in Nursing Homes .........................2

           How We Conducted This Review....................................................................................3

FINDINGS ...................................................................................................................................3

           Employee Health Examinations Were Not Conducted in Accordance With
            State Requirements .......................................................................................................4
                  State Requirements ..............................................................................................4
                  Health Examinations Were Not Conducted When Required ...............................4
                  Required Components of Health Examinations Were Not Conducted ................5
                  State Agency Did Not Always Review Health Examination Records ................7
                  State Agency Licensing Survey Procedures for Reviewing Health
                    Examination Records Did Not Specify All Required Components ..................7

           Nursing Homes Operated Optional Service Units Without the
            State Agency’s Approval ..............................................................................................7
                  State Requirements ..............................................................................................7
                  Nursing Homes Did Not Obtain State Agency Approval for
                    Optional Service Units ......................................................................................8
                  State Agency District Offices Misunderstood the Approval Requirement for
                    Optional Service Units ......................................................................................8
                  State Agency Licensing Survey Procedures for Optional Service Units
                    Did Not Require Surveyors To Determine Whether Nursing Homes
                    Had Approval To Operate Them ......................................................................8

           CMS’s Reliance on Licensing Surveys Could Not Ensure the Quality of Care
            Provided to Medicare and Medicaid Beneficiaries .......................................................9

RECOMMENDATIONS .............................................................................................................9




CMS’s Reliance on California Licensing Surveys of Nursing Homes (A-09-12-02037)                                                                    iv
CMS COMMENTS .....................................................................................................................9

APPENDIXES

          A: Audit Scope and Methodology ................................................................................ 10

          B: Statistical Sampling Methodology ........................................................................... 12

          C: Sample Results and Estimates .................................................................................. 15

          D: Employee Health Examination Example ................................................................. 17

          E: CMS Comments ....................................................................................................... 19




CMS’s Reliance on California Licensing Surveys of Nursing Homes (A-09-12-02037)                                                        v
                                             INTRODUCTION

WHY WE DID THIS REVIEW

Prior Office of Inspector General (OIG) reviews identified issues related to the oversight of
quality of care in California nursing and skilled nursing facilities (nursing homes). 1 OIG is also
performing reviews in various States to determine whether health care providers, including
nursing homes, met Federal and State requirements for employee qualifications and health
examinations. The Centers for Medicare & Medicaid Services (CMS) relies on State licensure,
including licensing surveys, as one way to ensure the quality of care provided in nursing homes.

OBJECTIVE

Our objective was to determine whether CMS’s reliance on the California Department of Public
Health, Licensing and Certification Division’s (State agency) licensing surveys of nursing homes
ensured quality of care and that adequate protection was provided to Medicare and Medicaid
beneficiaries.

BACKGROUND

Federal Licensing Requirements for Nursing Homes Under Medicare and Medicaid

The Medicare and Medicaid programs cover care in nursing homes for eligible beneficiaries who
need services, such as nursing, specialized rehabilitation, and medically related social
services. The Social Security Act (the Act) includes requirements that are intended, in part, to
ensure the quality of care in nursing homes. One requirement is that nursing homes be licensed
under applicable State law (the Act, §§ 1819(d)(2) and 1919(d)(2)). CMS implemented the
licensing requirement in 42 CFR part 483 as a condition of participation that nursing homes must
meet before they provide services to Medicare and Medicaid beneficiaries. CMS relies on the
States to license nursing homes within their jurisdictions. Title 22 of the California Code of
Regulations (CCR), division 5, chapter 3, lists licensing requirements for California nursing
homes.

Licensing Surveys of Nursing Homes in California

In California, the State agency must perform licensing surveys of nursing homes at least every
2 years to determine whether they meet the licensing requirements; this is intended to ensure the
quality of care being provided (Health and Safety Code §§ 1422(b)(1)(A) and 1279(b)). 2

1
 Unidentified and Unreported Federal Deficiencies in California’s Complaint Surveys of Nursing Homes
Participating in the Medicare and Medicaid Programs (A-09-09-00114), issued September 21, 2011, and Federal
Survey Requirements Not Always Met for Three California Nursing Homes Participating in the Medicare and
Medicaid Programs (A-09-11-02019), issued February 27, 2012.
2
 The State agency also performs certification surveys on behalf of CMS to determine the nursing homes’
compliance with Federal conditions of participation in 42 CFR part 483. This review did not examine the Federal
conditions of participation or the State agency’s procedures for surveying compliance with those requirements.



CMS’s Reliance on California Licensing Surveys of Nursing Homes (A-09-12-02037)                                   1
California law further states: “[Surveys] and investigations of long term health care facilities that
are certified by the Medicare Program or the Medicaid Program shall determine compliance with
federal standards and California statutes and regulations to the extent that California statutes and
regulations provide greater protection to residents” (Health and Safety Code § 1422(b)(1)(B)). If
a nursing home does not meet the licensing requirements, the State agency can impose a fine,
suspend or revoke the nursing home’s license, or take other actions.

The State agency’s licensing survey procedures include the review of (1) employee licenses or
certifications, (2) employee health examination records, and (3) units within the nursing homes
providing specific types of services (optional services such as physical, occupational, and speech
therapy) to residents. We refer to these units as “optional service units.”

During calendar years (CYs) 2010 and 2011, more than 600 surveyors worked in teams at the
State agency’s 18 district offices to survey nursing homes. The nursing homes employed about
130,000 health care and non-health-care providers 3 who served more than 13,200 Medicare and
61,800 Medicaid beneficiaries.

State Requirements for Employee Qualifications, Health Examinations, and Optional
Service Units in Nursing Homes

The State requirements for employee qualifications, health examinations, and optional service
units in nursing homes are listed in Title 22 of the CCR.

Employee Qualifications

Nursing home employees providing professional services, such as nursing or therapy services,
are required to be licensed or certified. Nursing homes must employ qualified personnel to carry
out the functions of the nursing home.

Employee Health Examinations

Nursing homes are required to ensure that all of their employees have initial and annual health
examinations. A health examination has three required components: a physical evaluation,
medical history evaluation, and tuberculosis screening.

Optional Service Units

Optional service units are units within a nursing home that are organized, staffed, and equipped
to provide specific types of patient care. Nursing homes must obtain approval from the State
agency for each optional service unit that provides optional services. Nursing homes that operate
optional service units are required to meet State regulations for adequate policies and procedures,
staff, equipment, and space. The approved optional services are required to be listed on the
nursing home’s license.

3
 California’s Office of Statewide Health Planning and Development provided the employee data, which included
employees who were not health care providers, such as housekeeping, maintenance, and administrative employees.



CMS’s Reliance on California Licensing Surveys of Nursing Homes (A-09-12-02037)                                  2
HOW WE CONDUCTED THIS REVIEW

We randomly selected 8 of 1,117 nursing homes in California. For each of the eight nursing
homes, we developed a list of employees who were required to have a license or certification to
provide health care services to nursing home residents during CYs 2010 and 2011. We then
randomly selected 30 employees who worked at each of the 8 nursing homes. For the 240 total
employees sampled, we reviewed their licenses or certifications and available health examination
records. We also reviewed the results of the available licensing surveys, licensing survey
documentation, and the nursing home licenses for CYs 2010 and 2011.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology, Appendix B contains the
details of our statistical sampling methodology, and Appendix C contains our sample results and
estimates.

                                               FINDINGS

CMS relied on the State agency’s licensing surveys of nursing homes. However, we found that
nursing homes did not always meet certain State requirements for employee health examinations
and optional service units. The licensing surveys did not always identify these issues; therefore,
CMS’s reliance on these surveys could not ensure quality of care and that adequate protection
was provided to Medicare and Medicaid beneficiaries.

All 240 sampled employees were licensed or certified in accordance with applicable State law.
However, for 59 employees, required health examinations were not conducted, and for
73 employees, at least 1 required component of health examinations was not conducted. Using
our sample results, we estimated that during CYs 2010 and 2011, health examinations were not
conducted for 30 percent of employees statewide, and at least one required component of health
examinations was not conducted for 26 percent of employees statewide. The sampled nursing
homes did not always follow their policies and procedures for health examinations, or their
policies and procedures were inadequate. Also, the State agency did not always conduct the
required licensing surveys, and the State agency’s procedures for reviewing health examination
records did not specify all required components.

In addition, seven of the eight sampled nursing homes did not obtain State agency approval for
optional service units but provided services in those units. The nursing homes and State agency
district offices misunderstood the requirement to obtain approval for optional service units.
Also, the State agency’s licensing survey procedures for reviewing optional service units did not
require surveyors to determine whether the nursing homes had approval to operate them.




CMS’s Reliance on California Licensing Surveys of Nursing Homes (A-09-12-02037)                      3
The nursing homes and the State agency could not be sure that nursing home employees were
free of any health conditions that might have created a hazard for Medicare and Medicaid
beneficiaries. Further, they could not always demonstrate that optional service units at the
nursing homes met State requirements for adequate policies and procedures, staff, equipment,
and space.

EMPLOYEE HEALTH EXAMINATIONS WERE NOT CONDUCTED IN
ACCORDANCE WITH STATE REQUIREMENTS

State Requirements

All employees working in a nursing home are required to have a health examination by a person
lawfully authorized to perform such a procedure indicating that the employee “... is sufficiently
free of disease to perform assigned duties and does not have any health condition that would
create a hazard for himself, fellow employees, or patients or visitors” (22 CCR § 72535(a)).
These examinations must occur within 90 days before employment or within 7 days after
employment (initial health examination) and at least annually thereafter (annual health
examination) (22 CCR § 72535(a)). The three required components of a health examination are
a physical evaluation, medical history evaluation, and tuberculosis screening (22 CCR
§§ 72535(a) and (b)). The nursing home must keep health records of all employment-related
health examinations for a minimum of 3 years following termination of employment (22 CCR
§ 72535(c)).

Health Examinations Were Not Conducted When Required

For 59 of the 240 sampled employees, health examinations were not conducted when required.
For 11 of the 59 employees, nursing homes did not provide files containing health examination
records (health file). For the remaining 48 employees, the nursing homes provided health files
that were missing at least 1 required initial or annual health examination record. Because the
nursing homes did not provide documentation to support the health examinations, we concluded
that the health examinations were not conducted. Using our sample results, we estimated that
health examinations were not conducted for 30 percent of employees statewide during CYs 2010
and 2011. Table 1 on the following page shows the number of employees who had no health
files or were missing at least one required health examination record at each of the eight nursing
homes.




CMS’s Reliance on California Licensing Surveys of Nursing Homes (A-09-12-02037)                      4
                Table 1: Number of Employees Without Health Files or Missing
                          at Least One Health Examination Record

                                                          Missing at Least One
                                                          Health Examination
         Nursing Home            No Health File                 Record                    Total
               A                         8                            8                     16
                B                        0                            2                      2
                C                        1                           14                     15
                D                        0                            6                      6
                E                        1                           13                     14
                F                        1                            2                      3
                G                        0                            1                      1
                H                        0                            2                      2
               Total                    11                           48                     59

All eight of the sampled nursing homes had policies and procedures for conducting employee
health examinations but did not always follow them. Further, two of these nursing homes did not
follow their procedures for conducting employee health examinations after the State agency had
determined that such examinations had not always been conducted. For example, one district
office, during its CY 2010 licensing survey, determined that health examinations were not
conducted for four of eight employees at nursing home A. In its October 25, 2010, response to
the district office’s finding, the nursing home stated that employees “will receive their health
exam as required.” However, after reviewing employee health records at nursing home A in
June 2012, we determined that health examinations were still not always conducted.

Required Components of Health Examinations Were Not Conducted

For 73 of the 240 sampled employees, the following required components of initial or annual
health examinations or both were not conducted:

    •   physical evaluations for 38 employees,

    •   medical history evaluations for 49 employees, and

    •   tuberculosis screenings for 25 employees. 4

See Appendix D for an example of an employee health examination, including the physical and
medical history evaluations and tuberculosis screening for one of the sampled employees.


4
 The total number of employees whose health examinations lacked a required component exceeds 73 because
38 employees had at least 1 health examination that lacked 2 required components.



CMS’s Reliance on California Licensing Surveys of Nursing Homes (A-09-12-02037)                           5
Using our sample results, we estimated that at least one required component of health
examinations was not conducted for 26 percent of employees statewide during CYs 2010 and
2011. Table 2 shows the number of employees whose health examinations lacked a required
component at each of the eight nursing homes.

                Table 2: Number of Employees Whose Health Examinations Lacked
                                    a Required Component

                                                                                      Total Number of
                                                                                      Employees Whose
                         Physical         Medical History        Tuberculosis           Examinations
        Nursing       Evaluation Not      Evaluation Not         Screening Not         Lacked at Least
         Home          Conducted           Conducted              Conducted           One Component 5
           A                1                   1                      4                      5
           B                0                   9                      2                     10
           C                4                   0                      6                      8
           D                1                   4                      1                      5
           E                1                   4                      2                      4
           F                6                   6                      3                      9
           G                0                   0                      7                      7
           H               25                  25                      0                     25
         Total             38                  49                     25                     73

The nursing homes’ policies and procedures were not fully implemented or did not specifically
address all required components of an employee health examination:

       •   Two nursing homes had specific policies and procedures on the three required
           components of an employee health examination. However, our results indicate that those
           policies and procedures were not fully implemented.

       •   Six nursing homes did not have specific policies and procedures on the three required
           components of an employee health examination. 6 For example, two nursing homes
           provided us with identical policies that stated: “All employees will undergo a health
           examination and tuberculosis screening when hired by this facility. Thereafter,
           government guidelines and facility policies will dictate reexamination procedures.
           Results of tests will be kept in the employee’s health record.” This policy did not
           describe all the required components of an employee health examination. These two

5
    See footnote 4.
6
 One nursing home was hospital-based and followed the hospital’s policies and procedures, which required only an
annual employee tuberculosis screening after an initial health examination. However, this nursing home should
have complied with the annual health examination requirement, which included a physical evaluation and a medical
history evaluation.



CMS’s Reliance on California Licensing Surveys of Nursing Homes (A-09-12-02037)                                    6
         nursing homes did not provide any additional facility policies or procedures on annual
         health examinations.

State Agency Did Not Always Review Health Examination Records

The State agency did not always review nursing homes’ employee health examination records. 7
The State agency reviewed employee health examinations records for four of the eight sampled
nursing homes. However, it did not conduct the required licensing surveys during CYs 2010 and
2011 or review those records during the licensing surveys for the four other nursing homes.
Officials at the district offices told us that they did not conduct licensing surveys at two of these
nursing homes because they had other priorities. For two other nursing homes, the district
offices did not provide documentation to show they had reviewed employee health examination
records during licensing surveys. According to the State agency, the health examination is the
primary source of documentation to show that employees are sufficiently free of disease and do
not have any health condition that may create a hazard for beneficiaries.

State Agency Licensing Survey Procedures for Reviewing Health Examination Records
Did Not Specify All Required Components

The State agency’s licensing survey procedures for reviewing nursing homes’ employee health
examination records did not specify all three required components of a health examination. The
procedures included a “State Survey Tool” (survey booklet), which consisted of nine sections
and checklists for licensing surveys. However, the survey booklet did not specifically refer to
the employee health record requirement. Instead, the survey booklet recommended that
surveyors use a supplemental form, i.e., “Smart Tool,” to document the review of employee
records, including health examinations. Although the Smart Tool required surveyors to check
that health examinations and tuberculosis screenings had been conducted, it did not specify that
the health examination also required both a physical evaluation and medical history evaluation. 8

NURSING HOMES OPERATED OPTIONAL SERVICE UNITS WITHOUT THE
STATE AGENCY’S APPROVAL

State Requirements

Optional service units are units within a nursing home that are organized, staffed, and equipped
to provide specific types of patient care (22 CCR § 72401(a)). Nursing homes must obtain State
agency approval to operate the units (22 CCR § 72401(d)). Nursing homes that operate optional
service units are required to meet State regulations for adequate policies and procedures, staff,
equipment, and space. For example, according to State requirements, physical therapy service
units must have equipment sufficient to provide physical therapy services (22 CCR § 72409(a)).

7
  The State agency told us that it sent a letter (All Facilities Letter 12-24, May 15, 2012) to all district offices to
remind surveyors to verify that nursing homes complied with the health examination requirements in 22 CCR.
8
  The State agency told us that it plans to revise the survey booklet to include the health examination requirements
listed in 22 CCR.



CMS’s Reliance on California Licensing Surveys of Nursing Homes (A-09-12-02037)                                           7
When approval is granted for an optional service unit, the State agency is required to list the
services on the nursing home’s license (22 CCR § 72401(e)).

Nursing Homes Did Not Obtain State Agency Approval for Optional Service Units

Seven of the eight sampled nursing homes did not obtain approval from the State agency for
optional service units but provided services in those units. Also, the services provided by these
units were not listed on the nursing homes’ licenses. The remaining nursing home was hospital-
based, and its hospital license listed optional services.

The nursing homes misunderstood the requirement to obtain State agency approval for optional
service units. According to six nursing homes, they thought that the nursing home license
permitted them to provide optional services without separate approval or that approval was
needed only if the nursing home provided outpatient services. One other nursing home indicated
that it did not need to request separate approval if contracted therapists provided the optional
services. According to the State agency, optional service units that provide physical,
occupational, or speech therapy services in the nursing home must be approved, even if the
services are provided by contracted therapists. 9

State Agency District Offices Misunderstood the Approval Requirement for
Optional Service Units

State agency district offices misunderstood when optional services needed approval. For
example, a supervisor from one district office stated that nursing homes may provide “basic
physical or occupational therapy” to residents without approval. The supervisor did not provide
additional information on the difference between basic therapy and optional services. Also, two
district office surveyors thought that optional services needed approval only when provided on
an outpatient basis.

State Agency Licensing Survey Procedures for Optional Service Units Did Not Require
Surveyors To Determine Whether Nursing Homes Had Approval To Operate Them

The State agency’s licensing survey procedures for reviewing optional service units did not
require surveyors to determine whether nursing homes had approval to operate them or had
licenses with a list of optional services that were provided. According to two district office
officials, the licensing survey procedures for reviewing optional service units would be followed
only if the nursing home license listed the optional services.




9
  The State agency issued a letter (All Facilities Letter 13-19, July 23, 2013) to remind nursing homes that the State
agency must approve an optional service unit and that the optional service must be identified on the nursing home
license when the nursing home has a unit organized and equipped for that service.



CMS’s Reliance on California Licensing Surveys of Nursing Homes (A-09-12-02037)                                          8
CMS’S RELIANCE ON LICENSING SURVEYS COULD NOT ENSURE THE
QUALITY OF CARE PROVIDED TO MEDICARE AND MEDICAID BENEFICIARIES

CMS relied on the State agency’s licensing surveys of nursing homes. However, we found that
nursing homes did not always meet certain State requirements for employee health examinations
and optional service units. The licensing surveys did not always identify these issues; therefore,
CMS’s reliance on these surveys could not ensure quality of care and that adequate protection
was provided to Medicare and Medicaid beneficiaries. According to CMS, nursing homes are
licensed in accordance with State regulations, and nursing homes are expected to comply with
those regulations. In addition, CMS stated that it relies on the State licensing regulations
because State standards can provide a greater level of protection to Medicare and Medicaid
beneficiaries than Federal standards can provide.

The effect of the deficiencies that we identified in our review was that the nursing homes and the
State agency could not be sure that nursing home employees were free of any health conditions
that might have created a hazard for Medicare and Medicaid beneficiaries. Further, they could
not always demonstrate that optional service units at the nursing homes met State requirements
for adequate policies and procedures, staff, equipment, and space.

                                       RECOMMENDATIONS

To ensure quality of care and the adequacy of the protection provided to Medicare and Medicaid
beneficiaries in nursing homes, we recommend that CMS work with the State agency to ensure
that:

    •   nursing homes (1) implement and follow adequate policies and procedures for employee
        health examinations and (2) request approval for optional service units,

    •   the State agency conducts all required licensing surveys and reviews employee health
        examination records during those surveys, and

    •   the State agency improves licensing survey procedures for (1) reviewing employee health
        examination records and the three required components and (2) determining whether
        optional service units operated by the nursing homes are approved and optional services
        are listed on the licenses.

                                          CMS COMMENTS

In written comments on our draft report, CMS concurred with all of our recommendations and
provided information on actions that it planned to take to address our recommendations. CMS’s
comments are included in their entirety as Appendix E.




CMS’s Reliance on California Licensing Surveys of Nursing Homes (A-09-12-02037)                      9
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our review covered 1,117 nursing homes in California; these nursing homes were certified by
Medicare or Medicaid or were certified by both programs. From these 1,117 nursing homes, we
randomly selected 8. From each of the 8 nursing homes, we randomly selected 30 employees
who were required to have a license or certification when they provided health care services
during CYs 2010 and 2011 (audit period). For the total 240 employees sampled, we reviewed
their licenses or certifications and initial and annual health examination records applicable to the
audit period. If an employee was not subject to a required health examination during the audit
period, we reviewed the health examination record related to CY 2009. In addition, our review
covered optional service units that provided specific types of services (such as physical,
occupational, and speech therapy services) to Medicare and Medicaid beneficiaries at the nursing
homes.

We did not review the overall internal control structure of the State agency or each sampled
nursing home. We reviewed only those internal controls that were significant to the objective of
our audit.

We conducted our audit from April 2012 to March 2013 and performed fieldwork at the State
agency’s office in Sacramento, the State agency’s three district offices in southern California,
and the eight sampled nursing homes.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal and State laws, regulations, and guidance;

    •   interviewed CMS officials regarding CMS’s reliance on State licensing requirements for
        nursing homes;

    •   interviewed State agency officials regarding licensing surveys and the management at
        6 district offices regarding licensing surveys performed for the 8 sampled nursing homes;

    •   reviewed the State agency’s procedures for conducting licensing surveys;

    •   created a sampling frame of 1,117 nursing homes and randomly selected a sample of 8;

    •   created a sampling frame of nursing home employees who were required to have a
        license or certification to provide health care services and were employed during the
        audit period for each nursing home;

    •   randomly selected 30 employees from each nursing home and reviewed their personnel
        and health examination records, when available;


CMS’s Reliance on California Licensing Surveys of Nursing Homes (A-09-12-02037)                    10
    •   verified the license or certification for each of the 240 sampled employees by checking
        the applicable professional State licensing board database and contacting the State
        agency;

    •   interviewed nursing home management and employees at the 8 nursing homes, including
        but not limited to the administrator, director of nursing, and director of staff development,
        about hiring processes and procedures, health examinations, and recordkeeping
        procedures for personnel and health examination records;

    •   estimated the percentages of employees in California for which the required health
        examinations or all required components of health examinations were not conducted;

    •   determined the types of optional services that were provided at the nursing homes by
        contacting the nursing homes or reviewing the nursing home’s license or both;

    •   reviewed each nursing home’s license issued by the State agency and determined the
        optional services that the nursing home was approved to provide;

    •   reviewed the results of the State agency’s licensing surveys conducted during the audit
        period, when available;

    •   reviewed available supporting documentation for the State agency’s evaluation of nursing
        homes’ compliance with requirements for health examinations and licensing of optional
        service units; and

    •   discussed the results of our review with CMS officials.

See Appendix B for the details of our statistical sampling methodology and Appendix C for our
sample results and estimates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




CMS’s Reliance on California Licensing Surveys of Nursing Homes (A-09-12-02037)                    11
               APPENDIX B: STATISTICAL SAMPLING METHODOLOGY

POPULATION

The population consisted of employees from California nursing homes that participated in
Medicare or Medicaid or both programs during the audit period. These employees were those
required to have a license or certification to provide health care services during our audit period.

SAMPLING FRAME

We created our sampling frame by obtaining a Microsoft Access database of all nursing homes
in the Unites States from CMS’s Nursing Home Compare system. The database consisted of
15,637 nursing homes. From the database, we removed nursing homes that (1) were outside
California, (2) had fewer than 30 certified beds and 30 residents, and (3) had a duplicate address.
We also removed nursing homes at which OIG had recently performed work. Table 3
summarizes the number of nursing homes removed from the sampling frame.

         Table 3: Reasons for Removing Nursing Homes From the Sampling Frame

                                                                            Number of
                         Reason for Exclusion                             Nursing Homes
           Outside California                                                14,405
           Fewer than 30 certified beds and 30 residents                        100
           Duplicate address                                                      1
           Where OIG had recently performed work                                 14
              Total                                                          14,520

After removing the 14,520 nursing homes, the first-stage sampling frame consisted of 1,117
nursing homes in California. We then randomly selected eight nursing homes.

Because the total number of employees at each of the 1,117 nursing homes was unknown, we
developed a second-stage sampling frame for each of the 8 sampled nursing homes. For each
nursing home, we:

    •   obtained a list of all current and terminated employees with job position, initial date of
        hire, and date of termination, if applicable;

    •   had nursing home staff identify the employees who were subject to licensing or
        certification requirements; and

    •   performed validation procedures to verify that these employees were subject to licensing
        or certification requirements.




CMS’s Reliance on California Licensing Surveys of Nursing Homes (A-09-12-02037)                        12
After performing these procedures, we determined the sampling frame for each nursing home
(Table 4).

             Table 4: Number of Health Care Employees in Our Sampling Frame

                                                     Number of Health
                                                     Care Employees in
                              Nursing Home            Sampling Frame
                                    A                      494
                                    B                      113
                                    C                      106
                                    D                      382
                                    E                      135
                                    F                      125
                                    G                       71
                                    H                      154
                                  Total                  1,580

SAMPLE UNIT

The primary sample unit was a California nursing home.

The secondary sample unit was a nursing home employee.

SAMPLE DESIGN

We used a multistage sample design. The first stage consisted of a random sample of eight
nursing homes from the sampling frame. The second stage consisted of a random sample of
employees who worked at each of the sampled nursing homes.

SAMPLE SIZE

We randomly selected eight nursing homes as the primary sample units. For the secondary
sample units, we selected a random sample of 30 employees, for a total of 240 employees.

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the OIG, Office of Audit Services (OAS), statistical
software.

METHOD FOR SELECTING SAMPLE UNITS

For the primary units, we consecutively numbered the nursing homes from 1 through 1,117.
After generating eight random numbers, we selected the corresponding frame items.




CMS’s Reliance on California Licensing Surveys of Nursing Homes (A-09-12-02037)             13
For each nursing home, we consecutively numbered each employee in the sampling frame,
starting with the value of one. After generating the random numbers, we selected the
corresponding frame items.

ESTIMATION METHODOLOGY

We used the OIG, OAS, statistical software to estimate the percentage of employees statewide
for whom (1) the required health examinations were not conducted and (2) all required
components of health examinations were not conducted.




CMS’s Reliance on California Licensing Surveys of Nursing Homes (A-09-12-02037)                14
                     APPENDIX C: SAMPLE RESULTS AND ESTIMATES

 Table 5: Sample Results for Eight Nursing Homes Where Health Examinations Were Not
                           Conducted (Number of Employees)

                                                                           No Health File or
                                                                         Missing at Least One
                Nursing         Nursing Home              Sample           Required Health
                 Home          Sampling Frame              Size          Examination Record 10
                  A                  494                    30                   16
                  B                  113                    30                    2
                  C                  106                    30                   15
                  D                  382                    30                    6
                  E                  135                    30                   14
                  F                  125                    30                    3
                  G                   71                    30                    1
                  H                  154                    30                    2
                 Total             1,580                   240                   59


     Table 6: Sample Results for Eight Nursing Homes Where Health Examinations Were
              Missing at Least One Required Component (Number of Employees)

                                                                       Health Examinations
              Nursing        Nursing Home              Sample          Missing at Least One
               Home         Sampling Frame              Size           Required Component
                A                 494                    30                     5
                B                 113                    30                    10
                C                 106                    30                     8
                D                 382                    30                     5
                E                 135                    30                     4
                F                 125                    30                     9
                G                  71                    30                     7
                H                 154                    30                    25
               Total            1,580                   240                    73




10
  We did not use the sample results for nursing homes B, G, and H to calculate the estimated percentage of health
examinations that were not conducted because the number of errors was fewer than three.



CMS’s Reliance on California Licensing Surveys of Nursing Homes (A-09-12-02037)                                     15
     Table 7: Estimated Statewide Percentage of Health Examinations Not Conducted
                and Health Examinations Without a Required Component
                  (Limits Calculated for a 90-Percent Confidence Interval)

                                                                      Health
                                                                   Examinations
                                     Health Examinations         Without a Required
                                       Not Conducted                Component
                  Point estimate             30%                       26%
                  Lower limit                14%                       14%
                  Upper limit                45%                       38%




CMS’s Reliance on California Licensing Surveys of Nursing Homes (A-09-12-02037)       16
             APPENDIX D: EMPLOYEE HEALTH EXAMINATION EXAMPLE

The examples below and on the following page are excerpts from an employee health
examination at one of the eight nursing homes, including an employee’s physical and medical
history evaluations and tuberculosis screening. 11 Documentation for employee health
examinations varied at the eight nursing homes.

                    Exhibit 1: Physical Evaluation and Tuberculosis Screening




According to the nursing
home administrator, the
handwritten notation on
the physical evaluation
indicates “follow up with
primary care physician
for complete physical.”




The purified protein
derivative (PPD) skin
test is a method used to
diagnose latent
tuberculosis.




11
  We redacted the names of the employee and the facility and the signature of the physician on the health
examination record.



CMS’s Reliance on California Licensing Surveys of Nursing Homes (A-09-12-02037)                             17
                                                   Exhibit 2: Medical History Evaluation


                                          EMPLOYEE'S HEALTH QUESTIONNAIRE 

                                                                                                           _._  swwo




   <AMLVW$1'0A\'          ~E•IIOII~not.tFt.'!AIIIl NF~                 _ tJOfl(l                  METES             /V0              TU6EilCWlS'S _:.f.). :..O:..__
   H~VE YOU ioiAl) OR 00 VOJ HAVE NIV OF '!ME FOLLOWING !0'«1< 'YH' 01 'No' ar.er toch qu<s~:
                                                                                                                                                                        Vtt      Ito
   OlS~SE OF                        Ytt                                         V.a   No                                 ,.,    ~•
   &••" ..                  ...     D           c....,, .              -·-· 0               ~eon'"""''"··· 0                          Melillo • ..... .           ·-        0
   Eyn ...... ,           , ...     0           Diwntu               .....-..   0           l!lm"' Bloocly
                                                                                                                                      ~t-.eFt..r . ....                     0
   Em ..........................    0           F,.quonl ~t141Chet ....         0             llowtl f,joy..,..,ll -·    0
           p.,..,..;, ·--·"""                 .. 0
                                                                                                                                      Clnttr Ot l\rnort ..._,, 0
   Nou ..........................   0           Ototnm ....................     0           fft4,orPJillul 

                                                                                                                                      ,t,sllltnl........................... 0

   n.o.t .                          0            Aunnono Eors ,_,.........   0                U!Ndo• .....·- ·····-··     0

   Heall .....- ....... ,.......... 0            F,.q. Soft Tht~>ll .........0              Blood In Urino .........-.    0
          Hoy fOMr......-..........          D 0""

   Luf19a ,,.,_,,.,_............ Q               Fttq\10111 COido... .... .• 0              Swelt~~ Ml<l<l ......- ...    0
                                    0 cY

                                                                                                                                      Olabtltt.......... ...... .....
   SIOf!lt<" .,................. , 0             FtWiting Spoto ............ 0              Hlgn Bood p,....., .....      0
                                    0 Q-"

                                                                                                                                      MMlit .................-...

   '""''"'' ................ 0                 Cfttll P•IN...... ........... 0              Jour4oot .................... 0 

                                                                                                                                       ...,.,,............. ... 0 0"

                                                                                                                                      ~~n

   "'"............... ' ... 0                  $notll\l>l Ol Bfllll> ..... 0                Hct'" 1/lUPM•J-- ..·-·· 0 

                                                                                                                                      N.-•      Srui<40Wn ..... 0 Ql'
                                                                                                                                      Painl\il Ft.• ~... .               0
   So101n ........ ...         • 0             CIIIO'IIC Cougn ... , ..... 0                S10mach Ulc"' ....- ... 0 

   G~od<ltr .... .......... 0                  Coughing UC> Blood ..... 0             12"   Pnt11moni1.....- ...._,... 0 

                                                                                                                                      Bockacnn ........... - ...         0

                                                                                                                                      CM>noc Sonu• ,....,, ....           0
   lli<lntYJ , .................. 0
   Slodder ......        -- 0
                                               Pllp<otlor• ....... ......... 0
                                               ~,.,                     - 0           tir
                                                                                            PI...,<Y ·····-··..·-··· 0 

                                                                                            IGdnoy 5,.,.,............ 0               '*"'' . . . . . .... ... 0 

  'Iloilo ···-··-· - - · 0                     Poor Appt1llt .. ... -· 0              IJ'   Pll., ........---·- 0 

                                                                                                                                      Oporo>OII• -·····-                  0
   ,..~ .              ·-·· 0                  ChtoloclrdiltJilorl.-.. 0                    F;i>Oreo.vuisions - ... 0
                                                                                                                                      Olhtr~s

   8"'- (Sc>ont! - · 0                         ~ NIIIMI - · 0                               f~JIJ.---- 0                                 lltnwo•-                     .0
   Slon ....                • 0            IJ' Roc- """""'9 0                         IT    - ···-· 0
   L)f"PPIIo<>dts -               0            ""'"""'olll<>od- 0                                                         0
   00 YOU HEAAWEU!                                          '{.(,4                        W£lGHT - - - - ­
   HAY£ 'IOUE'IEA 8£11< AEJlC'lO 011 lliSCIIJioF~ lo'll.IWfl $(1MCE!<CAUSE¢< I.UI!SS OfiiNJIJ~


   HAY£ YOU E'I£A ~ECEMOAHI' PEl<SIO'<. IN~~E ~Yt.f(IIT$ORC()I.lPt'l$.lllOHFOI'IAN ~AJ'IY OAUt-;ES$1
               ·                                               NO
   00 YOJ AAVE ANY OEFECf.                OEFO~ OA O<SU.SE WKtCH 1,1.\Y .HTtRFE.RE WllH YOUR v.QRI<l _ _n_.,:O;.____ ___
   STATE OET.U.SOF ILlNESSES NJUqES.OPER.<llONSCR OE1ECTS _ _ __..:JV...=...!e0:...:/I.:..:D-::._ _ _ _ _ _ _ _ __




CMS's Rc./ia»eo 001 Califomia Licomi>l!l Su,veys qj'Nu,.ing Hom<S (A· W -12· 02037)                                                                                                    18
                                                  APPENDIX E: CMS COMMENTS 


        ..,.,t•·~
     //'"           1...



 (           ~              DEPARTMENT OF HEALTH & HUMAN SERVICES                                    Centers for Medicare & Medicaid Services

      ...~tt-                                                                                        Administrato~
                                                                                                     Waohington, DC 20201



                           DATE:             HAR 14 201~
                           TO:


                           FROM:


                           SUBJECT:      Office oflns~tor General (OIG) Draft Report: CMS's Reliance ofCalifornia's
                                         Licensing Surveys ofNursing Homes Could not Ensure the Quality of Care Provided to
                                         Medicare and Medicaid Beneficiaries (A-09-12-02037)


                           The Centers for Medicare & Medicaid Services (CMS) thanks OIG for the opportunity to review and
                           comment on the above subject OIG draft report on California's licensing requirements and the extent
                           to which California surveyors identified concerns in nursing facilities regarding employee screening
                           of health conditions and approval ofoptional service units. OIG's objective was to determine
                           whether CMS' s reliance on the California Department of Public Health, Licensing and Certification
                           Division' s (state agency) licensing s urveys of nursing homes ensured quality ofcare and that
                           adequate protection was provided to Medicare and Medicaid beneficiaries.

                           The CMS will discuss the findings with the state agency and ask them to review the forms, booklets
                           and procedures used to complete the California licensing survey activities to ensure they include all
                           components of the requirements. In the following remarks, we elaborate on our response to each
                           individual OIG recommendations .

                           OIG Recommendation

                           To ensure quality ofcare and the adequacy of the protection provided to Medicare and Medicaid
                           beneficiaries in nursing homes, OIG recommends that CMS work vvith the State agency to ensure that
                           nursing homes (I) implement and follow adequate policies and procedures for employee health
                           examinations and (2) request approval for optional service units.

                           CMS Response

                           The CMS concurs. Though CMS does not have specific Requirements for Participation (R1Ps) that
                           address these issues and do not have authority over state licensure requirements, proper screening of
                           employees and approval ofspecific units outlined in the state licensure r equirements are related to
                           quality ofcare issues outlined in the RiPs (e.g., preventing spread ofinfections by employees and
                           proper provision of services such as specialized rehabilitation). CMS will discuss further with the
                           state agency. We understand that the state agency issued on May IS, 2012, an All Facilities Letter
                           that reminded nursing homes of their obligation under Title 22 of the California Code ofRegulations
                           to ensure that employee health exams are performed and documented.




CMS's Reliance on California Licensing Surveys ofNursing Homes (A-09-12-02037)                                                                  19
            Page 2 - Daniel R. Levinson

            OIG Recommendation

            To ensure quality of care and the adequacy of the protection provided to Medicare and Medicaid
            beneficiaries in nursing homes, OIG recommends that CMS work with the State agency to ensure that
            the State agency conducts all required licensing surveys and reviews employee health examination
            records during those surveys.

            CMS Response

            The CMS concurs. CMS understands that the California State Agency has reminded surveyors to
            review these state regulations while conducting its licensing surveys. CMS will request additional
            information and discuss further with the state agency.

            OIG Recommendation

            To ensure quality of care and the adequacy of the protection provided to Medicare and Medicaid
            beneficiaries in nursing homes, OIG recommends that CMS work with the State agency to ensure that
            the State agency improves licensing survey procedures for (I) reviewing employee health
            examination records and the three required components and (2) determining whether optional service
            units operated by the nursing homes are approved and optional services are listed on the licenses.

            CMS Response

            The CMS concurs. The California State Agency Training Academy for new surveyors includes
            training on conducting state licensing surveys. CMS is aware the state agency has proposed to-( 1)
            update the training on infection control to include the importance of surveying towards employee
            health. records; and 2) clarify with surveyors and nursing home providers that anytime a nursing home
            has a dedicated unit (room) set aside for one of the optional services that may include equipment, the
            state agency must approve the optional service and the optional service must be identified on the
            facility's license. The above information is based on a letter from the California Department of
            Health dated March 29,2013 to OIG . CMS will request information and discuss further with the
            state agency.

            The CMS thanks OIG for their efforts on this issue and looks forward to working with OIG on this
            and other issues in the future.




C.MS's Reliance on California Licensing Surveys ofNursing Homes (A-09-12-02037)                                      20
